     FOLLOW-UP AUDIT ON THE
  IMPLEMENTATION OF THE NORTH
AMERICAN FREE TRADE AGREEMENT’S
CROSS-BORDER TRUCKING PROVISIONS
  Federal Motor Carrier Safety Administration

         Report Number: MH-2009-068
         Date Issued: August 17, 2009
           United States Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   ACTION: Report on Follow-Up Audit of                                          Date:    August 17, 2009
           Implementation of the North American Free Trade
           Agreement’s Cross-Border Trucking Provisions
           Federal Motor Carrier Safety Administration
           Report Number MH-2009-068

  From:    Joseph W. Comé                                                             Reply to
                                                                                      Attn. of:   JA-40
           Assistant Inspector General
             for Surface and Maritime Program Audits

    To:    Acting Deputy Administrator, Federal Motor Carrier Safety Administration

           This report presents the results of our audit of the North American Free Trade
           Agreement’s (NAFTA) cross-border trucking provisions.            Transportation
                                                                  1
           appropriations legislation since fiscal year (FY) 2002 requires the Office of
           Inspector General (OIG) to annually review the Federal Motor Carrier Safety
           Administration’s (FMCSA) compliance with eight safety criteria set forth in
           section 350(c) of the FY 2002 Act. The eight safety criteria relate to potential
           Mexico-domiciled motor carrier operations beyond the commercial zones. 2

           The Omnibus Appropriations Act of 2009 (Omnibus Act) 3 extended OIG’s
           requirement to review the eight safety criteria and ended the Department’s
           ongoing NAFTA Cross-Border Trucking Demonstration Project (Demonstration
           Project), which allowed up to 100 Mexican motor carriers to operate in the United
           States beyond commercial zones. Exhibit A details the eight safety criteria and
           our audit requirements.




           1
               FY 2002 Department of Transportation and Related Agencies Appropriations Act (the FY 2002 Act),
               Pub. L. No. 107-87 (2001).
           2
               Commercial zones at the United States-Mexico border (the southern border) generally extend from 3 to 25 miles
               north of United States border municipalities (or 75 miles within the State of Arizona).
           3
               Pub. L. No. 111-8 (2009).
                                                                                                           2


BACKGROUND
Our last report on NAFTA cross-border trucking provisions, issued in August
2007, 4 concluded that FMCSA had sufficient staff, facilities, equipment, and
procedures in place to meet the section 350 criteria.              We made four
recommendations to FMCSA, two of which centered on improving
implementation of criteria six and seven, as shown in table 1. Exhibit B provides
more detailed information on the status of the eight criteria and details FMCSA’s
actions taken.

          Table 1. FMCSA’s Actions to Implement Section 350(c) Criteria

            Section 350(c) Criteria                        FMCSA’s Actions as of August 2007
(1) Hiring and training border inspectors.           Met the criteria—On-board staff is near authorized
                                                     strength and has been trained.
(2) Training inspectors conducting on-site           Met the criteria—Training was completed.
reviews as safety specialists.
(3) Not transferring inspectors to fill positions.   Met the criteria—No transfers were identified.
(4) Implementing an hours of service policy.         Met the criteria—Policy has been implemented.
(5) Having a sufficiently accurate, accessible,      Met the criteria—In place and being used.
and integrated information infrastructure and
adequate telecommunications links.
(6) Having adequate capacity at southern border      Substantially met the criteria. The capacity to perform
to conduct meaningful inspections.                   truck, bus, and driver inspections are in place, but
                                                     FMCSA needed to include bus inspections during peak
                                                     hours, such as holiday periods, at Laredo, Texas.
(7) Having sufficient databases to allow safety      Substantially met the criteria. Databases are in place,
monitoring of Mexican carriers and drivers.          but FMCSA needed to improve the consistency of
                                                     Mexican traffic conviction reporting to the Mexican
                                                     Conviction Database (formerly the 52nd State System).
(8) Having measures to effectively enforce and       Met the criteria—Enforcement rules were implemented
monitor Mexican carrier licensing.                   and states have adopted out of service criteria.
Source: OIG


For this audit, our objective was to assess FMCSA’s ongoing compliance with the
section 350(c) safety criteria since our August 2007 report. We also assessed
FMCSA’s implementation of two OIG recommendations made in August 2007
that pertain to issues not related to section 350(c). We recommended that FMCSA
(1) implement a policy on using vehicle model year data to indicate Mexican
vehicle compliance with Federal Motor Vehicle Safety Standards (FMVSS) and
record vehicle identification numbers as part of a safety inspection and
(2) establish an action plan, in coordination with other Department offices, to
address concerns regarding Mexico’s drug and alcohol testing of Mexican

4
    OIG Report Number MH-2007-062, “Follow-Up Audit of the Implementation of the North American Free Trade
    Agreement’s (NAFTA) Cross-Border Trucking Provisions,” August 6, 2007. OIG reports can be found on our
    website: www.oig.dot.gov.
                                                                                                              3


commercial drivers. Exhibit C provides the results of our review of these two
issues and two additional pertinent issues that we identified in our series of
reports 5 on the NAFTA Demonstration Project.

We conducted this performance audit from June 2008 through June 2009, in
accordance with Generally Accepted Government Auditing Standards as
prescribed by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. Exhibit D
details our audit scope and methodology.

RESULTS IN BRIEF
Since we began reporting on section 350(c) criteria in June 2002, FMCSA has
continually taken actions to address our recommendations for improvements in the
border safety program. For example, most recently, FMCSA (1) implemented
improved data quality control measures and action plans to correct inconsistencies
in state reporting of Mexican traffic conviction data; (2) issued peak hour bus
inspection procedures to its border staff in Laredo, Texas; and (3) conducted a
study of bus facilities and staffing at southern border crossings. 6 Despite these
positive actions, further efforts are still needed to improve the consistency of
information reported to the Mexican Conviction Database (MCDB) and to
improve the capacity to perform safe and efficient bus inspections at border
crossings.

First, states continue to inconsistently report traffic convictions incurred by
holders of Mexican driver’s licenses to the MCDB. For example, New Mexico’s
reporting of first quarter traffic convictions for calendar year (CY) 2008 was
delayed until the second quarter of that year. Also, Missouri reported traffic
convictions of Mexican drivers in non-commercial vehicles, while other states did
not. Moreover, current traffic conviction reporting requirements and monitoring
procedures make it difficult to account for the possibility that Mexican Federal
commercial driver’s license (CDL) holders operating in the United States could
also legally hold another Mexican-issued driver’s license. Inconsistent reporting
or monitoring problems make the system vulnerable to incomplete information or
delays. As a result, any conviction information that is not reported or delayed



5
    In response to section 6901 of the United States Troop Readiness, Veteran’s Care, Katrina Recovery, and Iraq
    Accountability Appropriations Act, 2007, OIG issued initial, interim, and final reports on this project.
6
    According to FMCSA, a study was completed in October 2008, but has not been approved for release.
                                                                                                                  4


could result in Mexican Federal CDL holders continuing to drive in the United
States after incurring a disqualifying traffic offense. 7

Second, performing safe and efficient bus inspections at border crossings
continues to be a challenge for FMCSA. Buses are less likely to be subject to
inspections at the southern border, especially at non-commercial crossings that are
not staffed by inspectors or at crossings for which inspections do not occur during
evenings and weekends. Further, at two non-commercial crossings, the bus
inspection space provided by Customs and Border Protection (CBP) was unsafe
due to the proximity to moving traffic, which may deter inspectors from
performing certain inspections. These constraints lessen the impact border
inspections have as a deterrent to unsafe buses entering the United States.

We are making a series of recommendations to FMCSA to address inconsistent
MCDB reporting and to make improvements in its Bus Inspection Plans.

PROBLEMS WITH MCDB DATA CONSISTENCY AND BUS
INSPECTION CAPACITY REMAIN
FMCSA continues to meet the eight section 350(c) safety criteria, as reported in
our August 2007 report, and has taken actions in response to two
recommendations in that report. Specifically, FMCSA concurred with OIG’s
recommendations for:

       having sufficient databases to allow safety monitoring of Mexican carriers
        and drivers. FMCSA agreed to (1) ensure state action plans addressing
        reporting problems are completed, (2) obtain monthly data reports and
        notify states of inconsistencies found, and (3) provide guidance on tracking
        inconsistencies to FMCSA Division Administrators.

       having adequate capacity at southern border to conduct meaningful bus
        inspections. FMCSA agreed to (1) modify the Bus Inspection Plan for
        Laredo, Texas, to ensure coverage during periods of peak traffic, including
        holidays; (2) work with CBP to determine the effectiveness of the plan; and
        (3) study bus activities and operations at southern border crossings.

Although FMCSA took actions in response to our August 2007 recommendations,
we identified additional improvements to address problems that remain for the
safety criteria related to consistent data reporting in the MCDB and having
adequate bus inspection capacity.

7
    Holders of CDLs in the United States, by law, must be disqualified for specific traffic offenses committed while
    operating a commercial motor vehicle or for specified offenses committed while driving a non-commercial vehicle,
    such as a passenger car or a rental car.
                                                                                    5


Inconsistent State MCDB Reporting of Traffic Convictions Remain
Our current work re-examined the data inconsistencies noted in our August 2007
report. Our assessment of the MCDB found that: (1) states continue to
inconsistently report traffic convictions incurred by holders of Mexican driver’s
licenses to the MCDB; (2) FMCSA’s quality control plan, intended to address
inconsistencies with the MCDB, did not include all procedural elements; and
(3) vulnerabilities existed regarding the treatment of different categories of traffic
convictions and types of Mexican-issued licenses

States Continue To Inconsistently Report Traffic Convictions Incurred by
Holders of Mexican Driver’s Licenses
Our analysis of MCDB data from January to September 2008 showed some
improvement in state reporting of data on Mexican traffic convictions incurred in
the United States, when compared to CY 2007 reporting. However, we concluded
that inconsistencies in state reporting continue to exist. Specifically:

    New Mexico’s CY 2008 first quarter convictions were not reported until
     the second quarter of CY 2008. According to FMCSA, new state staff was
     not aware of the MCDB reporting requirements.

    Arizona reported only 66 convictions for most of CY 2008 (from January to
     September 2008) in comparison to the 229 convictions reported in
     CY 2007. FMCSA asserted that Arizona reported all convictions and
     attributed Arizona’s low CY 2008 reporting to court non-compliance,
     reduction in CDL-related state law enforcement activities due to budget
     cuts, and reductions in commercial driving due to the economic downturn.

Any conviction information that is delayed or not reported, including information
on convictions incurred while driving a non-commercial vehicle, could result in
Mexican Federal CDL holders continuing to drive in the United States after
incurring a disqualifying traffic offense. We should note that we did not identify
specific examples where inconsistent reporting of convictions allowed a Mexican
Federal CDL holder to drive in the United States after incurring a disqualifying
traffic offense. However, by eliminating the existing inconsistencies in state
reporting, FMCSA would have greater assurance that Mexican commercial drivers
are qualified to drive in the United States.

The MCDB Quality Control Plan Did Not Include All Procedural Elements
Since our August 2007 report, FMCSA developed state action plans to help states
correct reporting inconsistencies and has worked with states to complete the plans.
Additionally, in January 2008, FMCSA instituted a quality control plan for the
                                                                                                                6


MCDB, in which quarterly reports of state MCDB data are generated and provided
to FMCSA Division Administrators for review and action.

Although FMCSA implemented its quality control plan for the MCDB and
provided states with a download of state-recorded MCDB data for review, we
found that FMCSA’s actions regarding the quality control plan differed from what
FMCSA proposed in its response to our August 2007 report. Specifically,
FMCSA did not implement a proposed procedure to provide monthly reports to its
Division Administrators identifying data inconsistencies. Instead, FMCSA
implemented a procedure to provide state quarterly-recorded MCDB data. If a
state did not have quarterly data, even though a history of convictions reported
existed, no report was generated.

Additionally, we found that the quality control plan procedures were transmitted
informally, that is, via an email from FMCSA to regional offices with broad
instructions to “…follow-up with your states and verify that the information is
correct.” The quality control plan also did not contain a proposed follow-up
procedure mechanism or guidance on how to track state data corrections.

The MCDB Was Vulnerable to Incomplete Information
According to FMCSA, the MCDB is not required, but was put in use until
Mexico’s Licencia Federal Information System (LIFIS) was fully developed and
operational to track Mexican Federal CDL holders. FMCSA contracted with TML
Information Services, Inc., (TML) to maintain the MCDB and uses the driver’s
license conviction data, under rules established by FMCSA, to disqualify any
Mexican Federal CDL holder, as warranted, from operating in the United States. 8
FMCSA has asked states to report the following categories of convictions to the
MCDB.

       Traffic convictions of Mexican Federal CDL holders operating commercial
        and non-commercial vehicles and

       Traffic convictions in a commercial vehicle when the driver used a
        Mexican personal or Mexican state-issued CDL.

Our current work found that states were not consistently reporting the categories
of traffic convictions that FMCSA requested. For example, New Mexico had not
reported non-commercial vehicle traffic convictions in CY 2007 or for most of
CY 2008. Conversely, other southern border states reported such convictions.
Furthermore, although not a definitive indication of reporting inconsistencies since
states may not have traffic convictions to report, 25 non-southern border states did

8
    Serious and disqualifying offenses include driving under the influence of alcohol or drugs and serious traffic
    offenses include multiple excess speeding violations or reckless driving.
                                                                                 7


not report a Mexican traffic conviction for CY 2007 and most of CY 2008. In
contrast, the remaining 21 non-southern border states reported at least one
Mexican traffic conviction. Even Hawaii, a non-continental state, reported
21 convictions—the second largest number of Mexican traffic convictions for a
non-southern border state in CY 2008.

We also found that states are reporting a third category of traffic convictions,
Mexican personal or Mexican state-issued CDL traffic convictions in a non-
commercial vehicle, to the MCDB. According to FMCSA, states are encouraged
to report these convictions at the states’ discretion. For example, Missouri
officials informed us that 428 non-commercial vehicle convictions reported in
CYs 2007 also include Mexican personal driver’s license convictions while
operating their personal vehicle. However, all of the states are not reporting such
information. Table 2 on the next page shows the number of MCDB Mexican
driver’s license convictions by vehicle type for CYs 2007 and 2008.

One reason for these inconsistencies in state reporting stems from the fact that
current Federal laws and regulations for the CDL program do not require states to
report convictions of Mexican Federal CDL holders to the MCDB. However, the
lack of consistent conviction data increases the possibility that Mexican Federal
CDL holders that should have been disqualified could continue to drive in the
United States. Similarly, a related vulnerability has to do with the current
monitoring procedures that make it difficult to account for the possibility that
Mexican Federal CDL holders operating in the United States could also legally
hold another Mexican-issued driver’s license. Because of this vulnerability,
FMCSA could not readily identify traffic convictions needed to disqualify
Mexican Federal CDL holders. Consequently, these Mexican drivers could incur
convictions under other driver’s licenses that may not be reported to the MCDB.

Furthermore, even if states report the convictions, FMCSA may not readily match
them to a Mexican Federal CDL holder because the matching is carried out
manually. As a result, the manual process is likely more susceptible to errors
when different types of licensing data are present, and matching convictions to the
CDL holders could become delayed if the number of non-Federal CDL
convictions reported were to increase. In contrast, United States CDL holders can
have only one license that covers the operation of both commercial and non-
commercial vehicles throughout the United States, making it more likely to detect
a traffic conviction.
                                                                                                                          8


   Table 2. MCDB Mexican Driver’s License Convictions by Vehicle Type
                         (CYs 2007 and 2008)
 MCDB Mexican Driver’s License                       Commercial Vehicle              Non-Commercial Vehicle
 Convictions Reported by State                                 CY 2008                           CY 2008
                                                              (January-                         (January-
                                                    CY 2007  September)              CY 2007   September)
 Southern Border States:
    Texas                                                2,254             1,931             339               606
    California                                              51               278              21                 99
    New Mexico                                             120               200               0                     0
    Arizona                                                 94                39             135                 27
 Non-Southern Border States:
 • Non-southern border states with a large
     number of convictions in a year:
    Missouri                                                 5                 1             428               313
    Hawaii                                                   0                 0               0                 21
 • Remaining non-southern border states with
     a small number of convictions in a year:*
    8 states reported both vehicle types                    17                11               9                 19
    7 states reported commercial only                        8                18               0                     0
    4 states reported non-commercial only                    0                 0               1                     4
    25 states reported no convictions                        0                 0               0                     0
 Total Convictions Reported:                              2,549             2,478             933             1,089
 Source: OIG analysis of FMCSA’s Mexican Conviction Database data.
 *The remaining 44 non-border states accounted for 1.2 percent of all convictions reported in the period; 87 of the
 7,049 convictions in both years for all vehicle types.


Inadequate Bus Inspection Capacity Exists at Some Southern Border
Crossings
Under section 350(c) criteria, FMCSA must have adequate capacity at southern
border crossings to conduct a sufficient number of meaningful vehicle safety
inspections. To meet the criteria for Mexican commercial buses operating in the
United States, FMCSA developed a Bus Inspection Plan that details, on a site-
specific basis, its plan to perform bus inspections at commercial and non-
commercial border crossings.

Our current work found a lack of daily inspections at non-commercial border
crossings. For example, we observed that bus inspection operations at four non-
commercial border crossings at Calexico and San Ysidro, California, and at
Laredo and McAllen-Hidalgo Bridge, Texas, did not include a daily inspection
presence. We also found that FMCSA had not followed through on its promised
action to add to its Bus Inspection Plan holiday and weekend bus inspection
coverage at Laredo, Texas. Instead FMCSA provided the inspection coverage
requirement to its staff in an email, which the staff stated it used as a basis for
                                                                                 9


carrying out its inspections. In addition to constraints on when inspections could
be performed, constraints on efficient and safety inspection space also existed. In
our opinion, these constraints lessen the impact that inspections can have on
deterring the entry of unsafe buses into the United States.

FMCSA’s Bus Inspection Plan Does Not Provide Adequate Capacity
Our review found that FMCSA needed to improve its capacity to adequately
perform bus inspections. First, its Bus Inspection Plan did not include the
frequency at which bus inspections should be performed at a crossing. FMCSA
and CBP personnel we interviewed confirmed that the Bus Inspection Plan
denotes a day and time period when inspections occur, but does not note the
frequency of the inspections. Consequently, significant time may elapse between
bus inspections.
Second, the Bus Inspection Plan limits inspections at some crossings to specific
hours that the crossings are open, designating a day and time, usually a weekday,
when inspections may occur. According to an FMCSA inspector, the Bus
Inspection Plan excluded evening inspections at some crossings due to the lack of
appropriate lighting. Furthermore, the Bus Inspection Plan does not include
alternative solutions such as portable lighting.

Although our review did not identify specific instances of unsafe bus crossings,
we found evidence that the frequency of bus inspections, and thus the deterrent
value, may decrease if the border is open to additional long-haul operations. At
California and Texas border crossings, FMCSA personnel stated that after the
Demonstration Project started, they no longer routinely performed bus inspections
as frequently as in the past because inspectors had been diverted to inspect
Demonstration Project trucks.

Our comparative analysis of inspection data for the year before the Demonstration
Project began to the first year of the project corroborated FMCSA’s statements.
We found that FMCSA bus inspections decreased by over 32 percent
(6,505 inspections), which corresponds with the increase in Demonstration Project
truck inspections that occurred (7,394 inspections). We also noted decreases in
inspections at most crossings. At El Paso, Texas, with a large volume of bus
crossings, bus inspections decreased by about 80 percent–the largest decrease of
all locations–from 5,143 inspections performed in the year before the
Demonstration Project to 1,021 inspections during the first year of the project.

Finally, the shift in FMCSA border staff to meet the requirements for truck
inspections under the Demonstration Project call into question whether FMCSA’s
border staff could meet the bus inspection demands that may occur if the border
were to open to a large number of Mexican long-haul trucks and buses. During its
first year, the Demonstration Project had less than 30 Mexican carriers and
                                                                                                                    10


118 trucks participating; but future demands, such as the need for FMCSA to meet
the section 350(a) prerequisite 9 to inspect 50 percent of the driver’s licenses of all
Mexican truck and bus drivers crossing the border, may create a far greater
demand as staff is required to inspect more vehicles than the number that
participated in the Demonstration Project.

Space Is Inadequate To Perform Efficient and Safe Bus Inspections
FMCSA did not have permanent facilities to perform bus inspections at any of the
five locations we visited, through which pass over 80 percent of bus crossings at
the southern border. For the San Ysidro, Laredo, and McAllen-Hidalgo crossings,
the space CBP provided FMCSA for bus inspections were located on the roadway
shoulder immediately after the CBP primary inspection booth. The inspection
space for Calexico was located on a small access way to the CBP inspection booth
and the Otay Mesa space was located on a circular roadway at the public entrance
to the CBP immigration building.

The space CBP provided to perform inspections at four of the five crossings may
limit the number of inspections FMCSA realistically can perform. According to
FMCSA officials at the Calexico, Otay Mesa, and San Ysidro crossings, inspectors
do not have adequate space to set up the full set of four ramps needed to efficiently
inspect the underside of a bus. Instead, inspectors can set up only two of the four
ramps needed to inspect a bus from bumper to bumper and must maneuver the bus
to make use of the two ramps, which requires additional time. According to
FMCSA officials at the McAllen-Hidalgo crossing, CBP does not allow ramp
inspections because it may disrupt traffic. Further, FMCSA officials at the
Calexico and Otay Mesa crossings informed us of instances where bus inspections
were not performed to accommodate CBP’s use of the space.

Additionally, the close proximity of inspection space to moving traffic may deter
inspectors from performing certain types of bus inspections. At two locations,
Laredo and San Ysidro, we observed FMCSA officials performing inspections on
the shoulder of the road within inches of moving passenger buses–without a
separation barrier. Further, an FMCSA official at one crossing stated that level 1
inspections, which include an inspection of the underside of the bus, are not
always performed because it is “too dangerous” to inspect the underside of the bus
so close to oncoming traffic. Figure 1 illustrates our observation of an FMCSA
bus inspection area to oncoming bus traffic and portable inspection ramps at the
San Ysidro, California, border crossing.


9
    Section 350(a) of the FY 2002 Act, and subsequent appropriations, contain a number of preconditions FMCSA must
    meet before it can review or process Mexican motor carrier applications to operate as a long-haul carrier beyond the
    municipal and commercial zones at the southern border. This includes requiring on-site safety examinations of
    motor carriers in Mexico, in some instances.
                                                                                11


        Figure 1. FMCSA Bus Inspection Area San Ysidro, California


               FMCSA Bus Inspection Area




                                                   Border Entrance
                                                   into the United
                                                   States

          Source: OIG

At the border crossings in Laredo and Hidalgo, Texas, we found near identical
inspection safety conditions and noted a potential bus passenger safety issue. At
these crossings, bus passenger waiting areas are situated within inches of moving
buses and there are no separation barriers from moving traffic.

CONCLUSION
FMCSA has continually taken actions to address our recommendations for
improvements in the border safety program. While FMCSA’s actions are
noteworthy, additional focus to promote comprehensive traffic conviction data and
adequacy of bus inspections will further advance the safety goals of the program.
FMCSA should consider this information as it moves forward, as directed by the
President, in working with the United States Trade Representative, the Department
of State, leaders in Congress and Mexican officials to propose legislation creating
a new cross-border trucking project that will meet the concerns of Congress and
NAFTA commitments.
                                                                                 12


RECOMMENDATIONS
We recommend that the FMCSA Acting Deputy Administrator:

1. Improve the monitoring of Mexican Federal CDL holders operating in the
   United States by:

   a. Developing and implementing a timely report that identifies state data
      inconsistencies in the MCDB, and assigning in the MCDB data quality
      control plan the responsibilities to address and follow up on data
      inconsistencies.

   b. Assessing whether legislative, regulatory, or MCDB system changes are
      needed to ensure the consistent reporting and matching of different
      categories of traffic convictions, including convictions in non-commercial
      vehicles and convictions occurring under various types of Mexican-issued
      licenses.

   c. Developing an action plan for implementing identified changes in the
      monitoring process, based on assessment results.

2. Improve the capacity to perform bus inspections at United States-Mexico
   border bus crossings by:

   a. Adding to its Southern Border Bus Inspection Plan the frequency of
      required bus inspections at non-commercial crossings and inspections
      during any hour the border crossing is opened, to include evening and
      weekend hours. Include in the plan actions to eliminate obstacles to
      achieving inspection coverage during all open periods.

   b. Working with the Customs and Border Protection Service, and other
      agencies as appropriate, to assess the safety and efficiency of bus inspection
      locations and space at all non-commercial border crossings at the southern
      border.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA with our draft report on June 25, 2009, and received its
response on August 11, 2009. FMCSA concurred with all five of the
recommendations and provided appropriate planned actions and target completion
dates. FMCSA also provided clarifying comments on its ability to conduct
driver’s license inspections, its use of safety performance data to screen Mexican
motor carriers and drivers, and actions it took to address prior OIG
                                                                                 13


recommendations.    We have incorporated the comments as appropriate.
FMCSA’s response is included in its entirety in the appendix to this report.

ACTIONS REQUIRED
We consider FMCSA’s planned actions and target dates responsive pending their
completion.     We appreciate the courtesies and cooperation of FMCSA
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-5630 or Kerry R. Barras, the Program Director, at
(817) 978-3318.

                                         #
                                                                               14



EXHIBIT A. SECTION 350 REQUIREMENTS
With the signing of the North American Free Trade Agreement in December 1992,
the United States and Mexico consented to cross-border trucking throughout both
countries by January 1, 2000. However, in December 1995, the Secretary of
Transportation indefinitely delayed implementation of NAFTA cross-border
provisions, citing safety reasons. Section 350 of the Department of Transportation
and Related Agencies Appropriations Act for Fiscal Year 2002 and subsequent
appropriation legislation prohibit FMCSA from using Federal funds to review or
process Mexico-domiciled motor carrier applications to operate beyond the United
States commercial zones until certain preconditions and safety requirements are
met. The full text of section 350(c) provisions, including the requirement for an
annual review by our office, is summarized below.

The Department of Transportation and Related Agencies
Appropriations Act for Fiscal Year 2002, Section 350(c) and (d)
Section 350(c). No vehicles owned or leased by a Mexican motor carrier may be
permitted to operate beyond United States municipalities and commercial zones
under conditional or permanent operating authority granted by the Federal Motor
Carrier Safety Administration until—

      (1) the Department of Transportation Inspector General conducts a
      comprehensive review of border operations within 180 days of enactment
      to verify that—

             (A) all new inspector positions funded under this Act have been
             filled and the inspectors have been fully trained;

             (B) each inspector conducting on-site safety compliance reviews in
             Mexico consistent with the safety fitness evaluation procedures set
             forth in part 385 of title 49, Code of Federal Regulations, is fully
             trained as a safety specialist;

             (C) the requirement of subparagraph (a)(2) has not been met by
             transferring experienced inspectors from other parts of the United
             States to the United States-Mexico border, undermining the level of
             inspection coverage and safety elsewhere in the United States;

             (D) the Federal Motor Carrier Safety Administration has
             implemented a policy to ensure compliance with hours-of-service
             rules under part 395 of title 49, Code of Federal Regulations, by
             Mexican motor carriers seeking authority to operate beyond United


Exhibit A. Section 350 Requirements
                                                                                  15


              States municipalities and commercial zones on the United States-
              Mexico border;

              (E) the information infrastructure of the Mexican government is
              sufficiently accurate, accessible, and integrated with that of United
              States enforcement authorities to allow United States authorities to
              verify the status and validity of licenses, vehicle registrations,
              operating authority and insurance of Mexican motor carriers while
              operating in the United States, and that adequate telecommunications
              links exist at all United States-Mexico border crossings used by
              Mexican motor carrier commercial vehicles, and in all mobile
              enforcement units operating adjacent to the border, to ensure that
              licenses, vehicle registrations, operating authority and insurance
              information can be easily and quickly verified at border crossings or
              by mobile enforcement units;

              (F) there is adequate capacity at each United States-Mexico border
              crossing used by Mexican motor carrier commercial vehicles to
              conduct a sufficient number of meaningful vehicle safety inspections
              and to accommodate vehicles placed out of service as a result of said
              inspections;

              (G) there is an accessible database containing sufficiently
              comprehensive data to allow safety monitoring of all Mexican motor
              carriers that apply for authority to operate commercial vehicles
              beyond United States municipalities and commercial zones on the
              United States-Mexico border and the drivers of those vehicles; and

              (H) measures are in place to enable United States law enforcement
              authorities to ensure the effective enforcement and monitoring of
              license revocation and licensing procedures of Mexican motor
              carriers.

       (2) The Secretary of Transportation certifies in writing in a manner
       addressing the Inspector General's findings in paragraphs (c)(1)(A) through
       (c)(1)(H) of this section that the opening of the border does not pose an
       unacceptable safety risk to the American public.

Section 350(d). The Department of Transportation Inspector General shall
conduct another review using the criteria in (c)(1)(A) through (c)(1)(H) consistent
with paragraph (c) of this section, 180 days after the first review is completed, and
at least annually thereafter.



Exhibit A. Section 350 Requirements
                                                                                                                     16




EXHIBIT B. STATUS OF SECTION 350(C) CRITERIA AND
INSPECTIONS AND OUT-OF-SERVICE RATES
This exhibit provides the status and results of our review of each section 350(c)
criteria and our examination of yearly inspection and out-of-service rates.

Status of Section 350(c) Criteria

Staffing, Training, and Transfer Restrictions of Inspectors. FMCSA reported
that 243 of 274, or nearly 90 percent, FMCSA enforcement personnel positions
authorized at the United States-Mexico border were filled as of October 2008, and
hiring efforts are ongoing. 10 This represents a slight decrease from the 93 percent
of filled positions reported in our August 2007 report. However, in our opinion,
the decrease is still within an acceptable range to substantially meet section
350(c)(1)(A) staffing criteria based on the 274 authorized positions and continuing
FMCSA recruitment efforts. In addition to the FMCSA enforcement personnel
currently working at the southern border, 345 federally subsidized state inspectors
are at United States-Mexico border crossings. Table 3 below shows a breakout of
the FMCSA personnel and locations along the southern border.

                          Table 3. Location of FMCSA Personnel at the
                                  United States-Mexico Border
                      Enforcement                  Number of Staff in                          Total
                      Staff Position      Arizona California New Mexico Texas
                     Inspector              24        12         7       89                     132
                     Auditor                  6            6              0            26        38
                     Investigator             4           13              0            26        43
                     Supervisor               5            5              1            12        23
                     Support                  1            2              0            4          7
                     Current Total           40           38              8           157       243
                     Last Reported*          44           44              7           159       254
                     Source: OIG analysis of October 2008 FMCSA Border Staff Roster.
                     *Last reported in our August 2007 report as of June 2006.


According to FMCSA officials, all enforcement personnel at the United States-
Mexico border crossings, both Federal and state, have the proper training to meet

10
     Section 350 referred to “inspectors,” but FMCSA categorized the positions as inspectors, auditors, and investigators
     responsible for providing a full range of safety enforcement functions. These enforcement actions include
     performing driver and vehicle safety inspections, safety audits, and compliance reviews and investigations. FMCSA
     established 274 positions as the target it needed to meet section 350 criteria.

Exhibit B. Status of Section 350(c) Criteria and Inspections and Out-
of-Service Rates
                                                                                                             17


section 350(c)(1)(A) inspection training criteria. Additionally, those personnel are
trained as safety specialists to conduct on-site reviews of Mexican motor carriers
to meet section 350(c)(1)(B) safety specialist training criteria. Because of the
limited number of new hires since our last audit, we relied on the results of our
past audit work, in which we confirmed that inspectors were attending training,
analyzed training class rosters, tested answer sheets, and reviewed personnel data.
Further, consistent with the non-transfer criteria of section 350(c)(1)(C), our
analysis found that none of the enforcement personnel hired for the United States-
Mexico border crossings were experienced FMCSA personnel transferred from
other parts of the United States to fill these positions.

Hours-of-Service Policy. FMCSA meets the hours-of-service policy criteria of
section 350(c)(1)(D). FMCSA has issued policy guidance requiring safety
auditors to verify hours-of-service compliance for Mexican motor carriers seeking
authority to operate outside municipal and commercial zones. At the border
crossings reviewed, we found that FMCSA conducted inspections as required in
accordance with Commercial Vehicle Safety Alliance (CVSA) inspection criteria,
which include reviewing drivers’ hours-of-service records.
Information and Telecommunications. At the border crossings reviewed,
FMCSA continues to provide an integrated information infrastructure and
telecommunications links in-place and sufficiently accessible to inspectors to meet
section 350(c)(1)(E). The sites had Internet access, telephone service and use of
linked wireless hand-held electronic devices, such as Personal Digital Assistants.
FMCSA personnel at Laredo, Texas, did however comment that the sole dial-up
computer line Internet connection at the border crossing was slow, often
disconnects when rain or high humidity is present, and also doubles as the
locations fax line. Because of the connection issues, personnel used their cellular
phones as a back-up. We plan to follow up on these issues in future reports.
Capacity to Conduct Meaningful Inspections at the Southern Border.
According to FMCSA, there are 25 United States-Mexico border commercial
crossings accommodating Mexican truck and bus traffic and 7 non-commercial
crossings that only accommodate bus traffic. These crossings are comprised of
FMCSA and state inspection sites along the southern border that are either fully
staffed or contain equipped inspection facilities that can be staffed when needed. 11
During our audit, we reviewed 11 truck inspection crossings and 5 bus inspection
crossings and found that FMCSA continues to have the capacity to conduct
meaningful truck and driver inspections at the southern border, by providing staff,
equipment, and inspection facilities to substantially meet section 350(c)(1)(F)
criteria. However, as discussed in the findings section of this report, FMCSA


11
     According to FMCSA, the commercial volume at some crossings was not sufficient to merit full-time inspection
     coverage or dedicated inspection facilities. Inspectors are available “on-call” to provide coverage.

Exhibit B. Status of Section 350(c) Criteria and Inspections and Out-
of-Service Rates
                                                                                                                      18


needs to improve on its capacity to adequately perform bus inspections at non-
commercial bus crossings at the southern border.
Sufficiently Comprehensive Data for Monitoring Motor Carriers and
Drivers. Three data systems were established to substantially meet section
350(c)(1)(G) criteria, which calls for an accessible database containing sufficiently
comprehensive data for monitoring all Mexican motor carriers and their drivers
that apply for authority to operate beyond the municipal and commercial zones on
the United States-Mexico border. The first system, the FMCSA MCDB (formerly
the 52nd State System), contains Mexican traffic convictions occurring in the
United States as reported by the states. The second system, the Government of
Mexico LIFIS contains Mexican records showing valid, disqualified, or expired
Mexican motor carrier CDLs as reported by the Government of Mexico. 12 The
third system, FMCSA MCMIS Mexican Monitoring sub-system is intended to
identify Mexican carriers that require compliance reviews for specific violations,
generate letters on corrective actions, and create a history of violations and
corrective dates.

Our current work examined FMCSA’s proposed actions in response to our
August 2007 report and found that FMCSA continued to improve the
comprehensiveness and consistency of MCDB conviction data by working with
southern border states on corrective action plans for data reporting problems, and
developed a process to quarterly identify and notify states of data inconsistencies.
We found that FMCSA’s implemented actions differed slightly from those it
promised and some data inconsistencies still existed. These issues were discussed
in the findings of this report.

Effective Enforcement. FMCSA has implemented actions that meet section
350(c)(1)(H) criteria to have measures in place for ensuring “effective
enforcement” of Mexican motor carriers. In our August 2007 report, we reported
that California was moving to adopt the FMCSA’s August 2002 interim final rule
on enforcing operating authority, which would require states to place Mexican
motor carrier vehicles out of service for violations of specific Federal motor
carrier regulations. 13 According to FMCSA, California still has not adopted the
rule, but continues to use an equivalent rule. Instead of putting a violator out of
service, California can either fine the violator $1,000 or order the violator to return
the vehicle to the country of origin. In addition to assessing a fine against
violators, California may also impound the vehicle and its cargo until the fine and


12
     Although FMCSA asserted that LIFIS data are now comprehensive, our ability to test the comprehensiveness of
     LIFIS information was limited because LIFIS is under the control of the Government of Mexico. We conducted
     audit work for our June 2002 report that validated the accuracy of information in LIFIS by tracing information in the
     system back to source documents.
13
     The final rule was issued on August 28, 2006 (71 FR 50862).

Exhibit B. Status of Section 350(c) Criteria and Inspections and Out-
of-Service Rates
                                                                                  19


impoundment charges are paid. FMCSA stated that it considers California’s
requirement that the vehicle be impounded to be compatible with its rule.

Further, following the issuance of our August 2007 report, FMCSA issued and
implemented new guidance in response to the NAFTA Demonstration Project.
Some of these policies, such as that regarding the English proficiency of Mexican
drivers in the United States, apply to Mexican drivers outside of the
Demonstration Project. We reviewed the implementation of these policies as part
of our audits of the NAFTA Demonstration Project and found that FMCSA has
taken proposed actions to ensure the policies were disseminated to state and local
officials.

Inspections and Out-of-Service Rates

To provide an indication as to how well FMCSA is implementing criteria under
the FY 2002 Act, we analyzed FMCSA and state inspection data of Mexican
carriers and drivers currently operating in the United States; mainly at the United
States-Mexico commercial zones on the southern border. We compared FY 2008
to prior years in (1) the number of Mexican commercial driver and vehicle
inspections occurring in the United States by FMCSA and state personnel and
(2) the rate (percentage) Mexican carrier vehicles and drivers are taken out of
service for a safety violation, which precludes further operation of a commercial
vehicle by its driver—until either a specified period elapses or a required condition
is met. We also compared FY 2008 Mexican vehicle out-of-service rate to the
out-of-service rate incurred by United States vehicles.

When we initially began reporting on Mexican cross-border trucking, we reported
that in 1997 FMCSA had only 13 Federal inspectors at the southern border. The
inspections occurring from the small number of inspectors at that time had resulted
in 56 percent of Mexican inspected vehicles passing the safety inspection and
44 percent being removed from service because of safety violations.

In comparison to 1997, in FY 2008 the number of personnel inspecting Mexican
vehicles and drivers is much greater and the ratio of Mexican trucks passing
versus failing inspections is greater. In FY 2008, FMCSA and the states had
588 enforcement personnel at the border, including 243 Federal personnel. In
addition, 78.8 percent of Mexican vehicles passed the safety inspection and
21.2 percent were removed from service because of safety violations. The
21.2 percent Mexican truck out-of-service rate is comparable to United States
trucks at 21.8 percent. As shown in table 4 on the following page, there also was a
slight increase in the number of inspections performed—from 215,140 in FY 2007
to 220,405 in FY 2008.


Exhibit B. Status of Section 350(c) Criteria and Inspections and Out-
of-Service Rates
                                                                                                          20


 Table 4. United States, Mexico, and Central America Commercial Vehicle
   and Driver Inspections and Out-of-Service Rates in the United States
                        (FY 2006 through FY 2008)
                                                                              Vehicles
     United States                                                         Placed Out of        Drivers
      Inspections                                                           Service for       Placed Out
 Performed—Carrier                                           Average          Safety or        of Service
 Domicile, Fiscal Year,                                     Inspection      Regulation        for License
  and Out-of-Service         Number of         Carriers        Per           Violation         Violation
         Rates               Inspections      Inspected      Carrier         (Percent)a        (Percent)b
                   2008        2,762,525        348,410              8              21.8%            6.9%
 United States     2007        2,655,012        337,835              8              21.7%            7.2%
                   2006        2,554,280        314,486              8              22.3%            7.3%
                   2008          220,405          4,335             51              21.2%            1.2%
    Mexico         2007          215,140          4,520             48              21.6%            1.0%
                   2006          211,106          4,617             46              20.9%            1.2%
                   2008              878            134              7              38.4%           63.2%
    Central
                   2007              775              91             9              33.6%           49.4%
   Americac
                   2006              491              54             9              42.7%           29.3%
 Source: OIG analysis of FMCSA’s Motor Carrier Management Information System data.
     a
       The out-of-service rate (percentage) for vehicles resulted from a CVSA North American Level I—walk-
        around, underside, and driver inspection; Level II—walk-around and driver inspection; and Level V—
        inspection only.
     b
       The out-of-service rate (percentage) for drivers resulted from CVSA North American Levels I and II
        inspections and a Level III—driver only inspection.
     c
       Our analysis noted United States inspections of Central American motor carriers. FMCSA’s December
        2008 interim final rule (73 FR 76472, December 16, 2008) established a new application process and
        safety monitoring system for non-North American-domiciled motor carriers, including Central American
        motor carriers.




Exhibit B. Status of Section 350(c) Criteria and Inspections and Out-
of-Service Rates
                                                                                              21




EXHIBIT C. OTHER ISSUES
This exhibit provides results of our review of the two issues we made
recommendations for in our August 2007 report not specific to section 350(c).
The exhibit also provides information on two issues we identified in our
September 2007 report 14 on the NAFTA Demonstration Project, which are
pertinent to Mexican long-haul operations in the United States.

Review of August 2007 Report Issues Not Specific to Section 350(c)
In our August 2007 report we recommended that FMCSA implement a policy on
the use of vehicle model year to indicate Mexican vehicle compliance with
FMVSS and record vehicle identification numbers as part of a safety inspection.
Our current review found that the policy is still needed. Additionally, we reported
that FMCSA should establish an action plan, in coordination with other
Department of Transportation offices, to address concerns regarding drug and
alcohol testing of all Mexican commercial drivers. FMCSA completed its
proposed actions and audited several Mexican specimen collection facilities, but
should continue to monitor Mexico’s efforts in this area.

FMCSA Policy Guidance Is Still Needed To Implement the Use of Vehicle
Identification Numbers in Vehicle Safety Inspections
In March 2002, FMCSA issued a proposed rule that would require each Mexican
commercial motor vehicle operating in interstate commerce in the United States to
display a certification label asserting that the vehicle complied with FMVSS, as
applicable, when it was built. FMCSA then withdrew this proposed rule in August
2005, after determining that it could ensure Mexico motor carriers’ compliance
with the standards while operating in the United States by enforcing the already
established Federal Motor Carrier Safety Regulations and other policies, because
many of the safety regulations are cross-referenced to the FMVSS.

Along with the withdrawal of the proposed rule, FMCSA issued policy guidance
entitled “Enforcement of Motor Carriers’ Self-Certification of Compliance with
the Motor Vehicle Safety Standard” in August 2005, to FMCSA and state
inspectors stating that enforcement officials “should defer to” the vehicle
identification number, which identifies the vehicle’s model year, to determine
whether a vehicle without a certification label complies with applicable




14
     OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed NAFTA Cross-Border Trucking
     Demonstration Project,” September 6, 2007.


Exhibit C. Other Issues
                                                                                                                      22


manufacturing standards. 15 The August 2005 memorandum also stated that
further guidance would be forthcoming to implement the policy. Our August 2007
report recommended that FMCSA issue implementation guidance as stated in the
policy. In September 2007, FMCSA issued guidance on the use of software for
checking vehicle identification numbers. FMCSA also proposed inspection
system software to prompt inspectors to enter the vehicle identification number for
vehicles inspected.

Our review found that FMCSA had revised its inspection software as promised
and it was in use during FMCSA inspections. However, the September 2007
guidance stated that it was in use for the Demonstration Project. Since the policy
is not applicable to all potential Mexican long-haul vehicles, our recommendation
to issue the implementation guidance from our August 2007 report remains open.
Furthermore, we plan to review FMCSA’s use of the revised system prompt in
future reports.

FMCSA Should Continue Monitoring Mexico’s Commercial Driver Drug
and Alcohol Testing Program
Our August 2007 report noted that a significant issue with Mexico’s specimen
collection remains, because it was not clear whether the controls in place ensure
valid specimens are collected in Mexico before being sent to a certified
laboratory. 16 In response, FMCSA agreed to establish an action plan, in
coordination with the United States Department of Transportation’s Office of
Drug and Alcohol Policy Compliance, to ensure Mexico’s drug and alcohol
collection issues are adequately addressed. Additionally, FMCSA stated that it
would conduct audits of drug and alcohol collection facilities in Mexico and
determine whether they meet United States standards. Our review found that
FMCSA completed its promised actions. FMCSA has stated that it will continue
to monitor this area and coordinate with the Office of Drug and Alcohol Policy
Compliance. We plan to follow up on this area in future reports.

Demonstration Project Issues Not Specific to Section 350(c)
Our September 2007 initial audit of the Demonstration Project identified two areas
that FMCSA should consider since they are relevant to Mexican long-haul
operations in the United States. First, our report identified three instances where
FMCSA varied slightly from requirements in section 350(a) of the FY 2002 Act.

15
     The FMCSA guidance stated that if FMCSA or state inspectors can determine Mexican-domiciled motor carriers are
     operating vehicles that are not in compliance with FMVSS, FMCSA may use this information to deny, suspend, or
     revoke a carrier’s operating authority for making a false certification or issue appropriate penalties. In its August
     2005 withdrawal of the proposed rule, FMCSA determined that most trucks produced in Mexico beginning in model
     year 1996 have met applicable manufacturing standards.
16
     In a 1998 memorandum of understanding between the Department and its Mexican counterpart, the Mexican
     authorities agreed to follow collection procedures equivalent to those used by the Department.


Exhibit C. Other Issues
                                                                                23


Second, the report discussed information safety inspectors could use to make a
safety assessment of Mexican carriers, such as vehicle inspections and accident
reports, were not available during pre-authorization safety audit.

Differences Noted in FMCSA’s Implementation of Three FY 2002 Act
Section 350(a) Prerequisites
Our September 2007 initial audit of the Demonstration Project identified 34
specific FY 2002 Act section 350(a) prerequisites for FMCSA to meet before it
could process applications from Mexican carriers to operate beyond commercial
zones. Of the 34 section 350(a) pre-requisites identified, FMCSA implemented
policies or interim final rules that differ slightly from the language for 3 of the
Section 350(a) provisions. FMCSA took quick action to account for these
differences for the NAFTA Demonstration Project; but now that the demonstration
project has been concluded, the differences are still relevant if the border were
opened to Mexican long-haul operations. Our work noted the following
differences.

    Section 350(a)(1)(B)(vi) requires a pre-authorization safety audit
     inspection of Mexican vehicles without an inspection decal, the FMCSA
     interim final rule limits such inspections to “available vehicles.” For the
     Demonstration Project, FMCSA reviewed all Mexican carrier vehicles that
     were proposed to participate in the project.

    FMCSA policy implementing the section 350(a)(3) requirement to
     electronically verify the status and validity of each Mexican commercial
     vehicle driver’s license crossing the border specifies license checks for only
     those drivers domiciled in Mexico. Strictly interpreted, the policy would
     not include Mexican commercial vehicle drivers who are domiciled outside
     of Mexico. For the Demonstration Project, FMCSA stated that it would
     inspect every project driver at the border, and would place out of service
     any driver operating without a valid Mexican Federal CDL.

    The 2002 rule defining safety rules relevant to Mexican motor carriers
     implementing section 350(a)(1)(B)(v) has not been updated to include part
     380, which establishes minimum requirements for operators of longer
     combination vehicles and their instructors. The rule only specifies
     49 C.F.R. parts 382 through 399, as applicable. For the Demonstration
     Project, FMCSA added to the operating authority authorization letter for
     the Mexican carrier participating in the project a restriction on operating
     long combination vehicles in the United States, which is the subject of part
     380.



Exhibit C. Other Issues
                                                                              24


FMCSA should address all differences to ensure they meet section 350(a) criteria
before processing applications from Mexican carriers to operate beyond
commercial zones. We plan to follow up on this area in future reports.

Unavailable Carrier Data Available During Pre-authorization Safety Audits
In our September 2007 report, we reported that during an FMCSA on-site pre-
authorization safety audit of a Demonstration Project applicant, information such
as carrier vehicle and driver crashes in Mexico was not available to the safety
auditor. FMCSA has stated that it is working with the government of Mexico to
improve the availability of the information during the pre-authorization safety
audit. We plan to follow up on this area in future reports.




Exhibit C. Other Issues
                                                                                  25



EXHIBIT D. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective for this audit was to assess FMCSA’s ongoing compliance with the
section 350(c) safety criteria. We conducted this performance audit from June
2008 through June 2009, in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Because of our in-depth coverage of this area during previous audit work, we
limited our testing of the eight section 350(c) criteria. Exhibit E lists our reports
relating to NAFTA cross-border trucking. As part of our audit, we analyzed
selected FMCSA data and documentation, such as border staff rosters and payroll;
training reports; inspection reports and inspection data; policies and procedures;
and other documentation and data. We also used results from our recent work
performed in response to section 6901 of the United States Troop Readiness,
Veteran’s Care, Katrina Recovery, and Iraq Accountability Appropriations Act,
2007, covering the NAFTA Cross-Border Demonstration Project, to determine
whether any findings or recommendations reported in those resulting reports also
applied to Mexican long-haul operations, if authority is granted.

To further test FMCSA’s implementation of the provisions of the eight
section 350 (c) criteria and to review its actions in response to our August 2007
report recommendations, we observed operations at southern border crossings—
11 truck border crossings and 5 bus border crossings (see table 5 on the following
page). For most truck border crossings visited, we relied on the technical
assistance of our safety specialists with extensive law enforcement and vehicle
inspection experience.

At each crossing, we observed the vehicle and driver inspections procedures,
operations, and inspection-related facilities and equipment.            Further, we
interviewed officials from FMCSA, United States Customs and Border Protection,
and the states, if necessary, to determine: (1) whether the conditions reported in
2007 remained the same, (2) the current roles and procedures used to permit
Mexican motor carriers’ entry into the United States, (3) the working relationships
between border staff of the different agencies, (4) actions taken in response to our
2007 report recommendations, and (5) inspection procedures and certifications.




Exhibit D. Objective, Scope, and Methodology
                                                                                26


       Table 5. Truck and Bus Border Crossings that OIG Observed

        Truck Border Crossings                      Bus Border Crossings
 Bridge of the Americas, El Paso, TX          Calexico, CA
 Calexico East, Calexico, CA                  Juarez-Lincoln Bridge, Laredo, TX
 Columbia Solidarity Bridge III, Laredo, TX   McAllen–Hidalgo Bridge, Hidalgo, TX
 Camargo Bridge, Rio Grande City, TX          Otay Mesa, CA
 Eagle Pass, TX                               San Ysidro, CA
 Otay Mesa, CA
 San Luis, AZ
 Santa Teresa, NM
 Tecate, CA
 World Trade Bridge, Laredo, TX
 Ysleta-Zaragosa Bridge, El Paso, TX

We analyzed MCDB reported data and documentation provided by FMCSA for
inconsistencies and to assess FMCSA’s recently implemented MCDB data quality
control plan. In addition, we interviewed state officials responsible for MCDB in
Arizona, California, Missouri, New Mexico, and Texas and TML Information
Services, Inc. the contractor responsible for the database. We contacted these
officials to determine whether actions included in state action plans were
completed and data inconsistencies FMCSA found as part of the quality control
plan were subsequently corrected.           Furthermore, we accompanied the
Department’s representatives to Mexican drug and alcohol specimen collection
sites, reviewed the resulting reports, and interviewed Mexican officials at these
sites.

We independently obtained data from FMCSA’s MCMIS data to make
comparisons and assess FMCSA’s continued improvement in implementing
section 350(c). Our independent analysis determined the number of driver, truck,
and bus inspections conducted and computed the vehicle and driver out-of-service
rates for the United States, Mexico, and Central America for FYs 2006 through
2008. We compared these rates in our August 2007 report and to periods before
and after the start of the Demonstration Project. We performed a limited
assessment of the general and application controls for MCMIS. For the other
systems we used, such as the MCDB, we selectively analyzed data to test for
completeness.




Exhibit D. Objective, Scope, and Methodology
                                                                        27




EXHIBIT E. PRIOR NAFTA CROSS-BORDER AUDIT COVERAGE
The following is a list of prior reports issued on NAFTA.

    OIG Report Number MH-2009-034, “Final Report on NAFTA Cross-
     Border Trucking Demonstration Project,” February 6, 2009.

    OIG Report Number MH-2008-040, “Interim Report on NAFTA Cross-
     Border Trucking Demonstration Project,” March 10, 2008.

    OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed
     NAFTA Cross-Border Trucking Demonstration Project,” September 6,
     2007.

    OIG Report Number MH-2007-062, “Follow-Up Audit of the
     Implementation of the North American Free Trade Agreement’s Cross-
     Border Trucking Provisions,” August 6, 2007.

    OIG Report Number MH-2005-032, “Follow-up Audit of the
     Implementation of the North American Free Trade Agreement’s (NAFTA)
     Cross-Border Trucking Provisions,” January 3, 2005.

    OIG Report Number MH-2003-041, “Follow-up Audit on the
     Implementation of Commercial Vehicle Safety Requirements at the United
     States-Mexico Border,” May 16, 2003.

    OIG Report Number MH-2002-094, “Implementation of Commercial
     Vehicle Safety Requirements at the United States-Mexico Border,”
     June 25, 2002.

    OIG Report Number MH-2001-096, “Motor Carrier Safety at the United
     States-Mexico Border,” September 21, 2001.

    OIG Report Number MH-2001-059, “Status of Implementing the North
     American Free Trade Agreement’s Cross-Border Trucking Provisions,”
     May 8, 2001.

    OIG Report Number TR-2000-013, “Mexico-Domiciled Motor Carriers,”
     November 4, 1999.

    OIG Report Number TR-1999-034, “Motor Carrier Safety Program for
     Commercial Trucks at United States Borders,” December 28, 1998.


Exhibit E. Prior NAFTA Cross-Border Audit Coverage
                                                        28




EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Kerry R. Barras                    Program Director

  David Pouliott                     Program Manager

  Pat Conley                         Senior Auditor

  Tony Saraco                        Senior Auditor

  Michael Masoudian                  Analyst

  Calvin Moore                       Analyst

  Anette Soto                        Analyst

  Scott Williams                     Analyst

  Harriet Lambert                    Writer-Editor




Exhibit F. Major Contributors to This Report
                                                                                                           29



           APPENDIX. MANAGEMENT COMMENTS




           U.S. Department
                                                                Memorandum
           Of Transportation

           Federal Motor Carrier
           Safety Administration


Subject:   INFORMATION: Response to the OIG Draft                   Date:
                                                                               AUG 11 2009
           Report
            “Follow-Up Audit of Implementation of the NAFTA
           Cross-Border Trucking Provisions” O8M3009M000

From                                                                Reply      MC-E
                                                                    to
           Rose A. McMurray                                         Attn: of
           Acting Deputy Administrator

To:        Joseph W. Comé
           Assistant Inspector General
            for Highway, Transit, Rail, and Maritime Audits


           The Federal Motor Carrier Safety Administration (FMCSA) appreciates the opportunity to review
           the Office of Inspector General (OIG) draft report titled, “Follow-up Audit on the Implementation
           of the North American Free Trade Agreement’s Cross-Border Trucking Provisions.”

           FMCSA Conducts Vigorous Enforcement Program for Mexican Vehicles and Drivers

           The FMCSA maintains a vigorous oversight program for Mexican drivers. In Fiscal Year (FY)
           2008, the FMCSA conducted 223,564 driver inspections on Mexican drivers. The FMCSA is
           confident that the 485 available Federal and State commercial motor vehicle inspectors can
           continue to achieve the statutorily required driver’s license inspection level for Mexican drivers
           who operate beyond the commercial zones and the Agency will continue to ensure that the border
           is adequately staffed. The FMCSA has a history of staffing the border at the levels necessary to
           achieve its enforcement goals, and it is therefore not clear why the draft report expresses concern
           regarding the Agency’s ability to inspect 50 percent of the drivers’ licenses of Mexican truck and
           bus drivers crossing the border, if the border were to open to a large number of Mexican long-
           haul trucks and buses. For example, during the recently discontinued Demonstration Project,
           FMCSA staff inspected nearly 100 percent of the drivers’ licenses of the Demonstration Project
           drivers. The FMCSA will continue to staff the border in the manner necessary to achieve
           enforcement goals.

           The FMCSA evaluates the safety performance of Mexican drivers in a manner identical to United
           States (U.S.) and Canadian drivers. Disqualifying violations reported on Mexican and Canadian
           drivers are the same as those that are required to be reported for U.S. drivers. Violations such as


           Appendix. Management Comments
                                                                                                  30


the absence of operating authority are not considered disqualifying offenses for individual driver
licensing purposes, and are, therefore, not required to be posted on the driver’s license record or
the Mexican Convictions Data Base (MCDB). They are, however, included in the FMCSA’s
Motor Carrier Management Information System (MCMIS). As a result, it is inaccurate for the
OIG report to maintain that violations attributable to motor carriers, such as any relating to
operating a vehicle without operating authority or required shipping documents, should be
included in the MCDB.

Finally, FMCSA conducted 2,094 inspections on Mexican motor carriers of passengers during FY
2008. As the ports of entry along the United States-Mexico border were not originally designed
to accomplish motor coach/bus inspections, FMCSA will continue to work with the U.S. Customs
and Border Protection (CBP) and the General Services Administration (GSA) to address issues
related to gaining additional space at the ports of entry for effective bus inspections and safe
operations.

Safety Performance Data Demonstrates Progress

The safety performance data gathered by FMCSA during the Pre-Authorization Safety Audits
conducted during the recently discontinued Demonstration Project proved effective in screening
out unsafe motor carriers. As mentioned in the Demonstration Project’s independent evaluation
panel in its October 2008 report, the Mexican motor carriers that participated in the project had a
driver out-of-service rate of 0.5 percent and a vehicle out-of-service rate of 7.2 percent during the
first year of the project. As a comparison, the panel noted that U.S. motor carriers had driver and
vehicle out-of-service rates of 7.2 percent and 22.6 percent respectively during FY 2007.

The FMCSA recognizes the necessity for complete, timely, accurate and consistent data
reporting. For this reason, on December 11, 2008, FMCSA entered into a Memorandum of
Understanding with Mexico’s Direccíon General del Autotransporte Federal, which will, in part,
provide for the exchange of safety related data and expertise for the improvement of both
countries’ motor carrier information systems. The FMCSA will continue to work with the
Direccíon General del Autotransporte Federal on the implementation of motor carrier safety data
exchange.

The other data system referenced in the OIG draft report, the MCDB, is not statutorily required
and the States are not required to report convictions of Mexican Federal commercial driver’s
license (CDL) holders to the MCDB. As a result, while the data provides potentially useful
information to program managers, trends in the MCDB are not necessarily indicative of the
quality or uniformity of enforcement actions. Therefore, FMCSA cautions against drawing
conclusions relating to enforcement on the border based on trends in this data. In light of existing
limitations with the MCDB data, FMCSA has ongoing efforts to enhance data quality for the
MCDB. While FMCSA’s quality control plan has already improved reporting of traffic
convictions by the States’ to the MCDB, FMCSA is pursuing further improvements to evaluate
traffic conviction reporting trends and data reporting inconsistencies.

Actions Completed on Prior OIG Recommendations

The FMCSA completed action on previous OIG recommendations that have contributed to
improved safety at the border. Specifically, FMCSA implemented new policies and procedures at
the beginning of the recently discontinued Demonstrations Project that addressed issues from the
OIG’s September 2007 report, regarding Level 1 inspections of Mexican commercial motor
vehicles, electronic verification of all licenses presented when Mexican drivers cross the border,


Appendix. Management Comments
                                                                                               31


and minimum requirements for operators of longer combination vehicles. These policies and
procedures will carry forward to future oversight programs developed to implement the cross-
border provisions of the North American Free Trade Agreement and satisfy the implementation
criteria found in Section 350(a) of the FY 2002 Appropriations Act.

RECOMMENDATIONS AND RESPONSES

RECOMMENDATION 1a: Improve the monitoring of Mexican Federal CDL holders
operating in the United States by developing and implementing a timely report that
identifies state data inconsistencies in the MCDB, and assigning in the MCDB data quality
control plan the responsibilities to address and follow up on data inconsistencies.

RESPONSE: CONCUR. The FMCSA will revise its MCDB Data Quality Control Plan to
address the inconsistency of conviction reporting by the States, and to establish responsibilities
for addressing noted data issues. The FMCSA anticipates completion of this task by December
2009. To validate the effort of
the States, and further identify improvements in each State’s program, FMCSA is incorporating a
review of the States’ driver conviction reporting protocol into the CDL compliance reviews being
conducted by FMCSA. The FMCSA anticipates completion of this task by September 2010.

RECOMMENDATION 1b: Improve the monitoring of Mexican Federal CDL holders
operating in the United States by assessing whether legislative, regulatory, or MCDB system
changes are needed to ensure the consistent reporting and matching of different categories
of traffic convictions, including convictions in non-commercial vehicles and convictions
occurring under various types of Mexican-issued licenses.

RESPONSE: CONCUR. The FMCSA’s Office of Enforcement and Compliance will issue a
report to the FMCSA Administrator outlining any changes required to ensure the consistent
reporting and matching of traffic convictions occurring on Mexican driver’s licenses. The
FMCSA anticipates completion of this task by December 2009. The FMCSA will evaluate and
determine the programming changes needed to address matching requirements and anticipates
completion of this task by September 2010.

RECOMMENDATION 1c: Improve the monitoring of Mexican Federal CDL holders
operating in the United States by developing an action plan for implementing identified
changes in the monitoring process, based on assessment results.

RESPONSE: CONCUR. The FMCSA will develop an action plan for implementing identified
changes in the monitoring process based on the assessment results. The FMCSA anticipates
completion of this task by December 2009.

RECOMMENDATION 2a: Improve the capacity to perform bus inspections at United
States-Mexico border bus crossings by adding to its Southern Border Bus Inspection Plan
the frequency of required bus inspections at non-commercial crossings and inspections
during any hour the border crossing is opened, to include evening and weekend hours.
Include in the plan actions to eliminate obstacles to achieving inspection coverage during all
open periods.

RESPONSE: CONCUR. The FMCSA will revise its Southern Border Inspection Plan to include
the frequency of required bus inspections at non-commercial crossings, inspections during any
hour the border crossing is open, and actions to eliminate obstacles to achieving inspection


Appendix. Management Comments
                                                                                                  32


coverage during all open periods. The FMCSA anticipates completion of this task by October
2009.

RECOMMENDATION 2b: Improve the capacity to perform bus inspections at United
States-Mexico border bus crossings by working with Customs and Border Protection
Service, and other agencies as appropriate, to assess the safety and efficiency of bus
inspection locations and space at all non-commercial border crossings at the southern
border.

RESPONSE: CONCUR. The FMCSA will work with CBP and GSA to assess the safety and
efficiency of bus inspection locations and space at all non-commercial border crossings and
pursue additional accommodations as appropriate. The FMCSA anticipates the assessment will
be completed by September 2010. The FMCSA anticipates that any needs identified by this
assessment will require additional resources. Further compliance with this recommendation may
be dependent upon these resources.

The FMCSA appreciates the OIG’s efforts, which assist FMCSA in fulfilling its transportation
safety goals. If you need additional information or clarification, please do not hesitate to contact
me, or William Quade, Associate Administrator, Office of Enforcement and Program Delivery,
202-366-4553.




Appendix. Management Comments
The following pages contain textual versions of the charts and figures found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
 Report on Follow-Up Audit of Implementation of the North American Free
          Trade Agreement’s Cross-Border Trucking Provisions
               Federal Motor Carrier Safety Administration



                     Section 508 Compliant Presentation

Table 1. FMCSA’s Actions to Implement Section 350(c) Criteria

This table demonstrates the eight section 350(c) criteria and the actions FMCSA
has taken to meet those requirements as of August 2007. Source is the OIG.

     Criteria 1- Hiring and training border inspectors. FMCSA met the criteria
      as on-board staff is near authorized strength and has been trained.

     Criteria 2- Training inspectors conducting on-site reviews as safety
      specialists. FMCSA met the criteria as training was completed.

     Criteria 3- Not transferring inspectors to fill positions. FMCSA met the
      criteria as no transfers were identified.

     Criteria 4- Implementing an hours of service policy. FMCSA met the
      criteria as policy has been implemented.

     Criteria 5- Having a sufficiently accurate, accessible, and integrated
      information infrastructure and adequate telecommunications links.
      FMCSA met the criteria.

     Criteria 6- Having adequate capacity at southern border to conduct
      meaningful inspections. FMCSA substantially met the criteria. The
      capacity to perform truck, bus, and driver inspections are in place, but
      FMCSA needed to include bus inspections during peak hours, such as
      holiday periods, at Laredo, Texas.

     Criteria 7- Having sufficient databases to allow safety monitoring of
      Mexican carriers and drivers. FMCSA substantially met the criteria.
      Databases are in place, but FMCSA needed to improve the consistency of
      Mexican traffic conviction reporting to the Mexican Conviction Database,
      formerly the 52nd State System.

     Criteria 8- Having measures to effectively enforce and monitor Mexican
      carrier licensing. FMCSA met the criteria as enforcement rules were
      implemented and states have adopted out of service criteria.
Table 2. Mexican Conviction Database Mexican Driver’s License Convictions
by Vehicle Type From Calendar Year 2007 Through September of 2008

This table summarizes the number of Mexican driver’s license convictions as
contained in the Mexican Conviction Database by vehicle type from January of
2007 through September of 2008. The source for this information is OIG’s
analysis of FMCSA’s Mexican Conviction Database data.

The following are the results of the number of Mexican driver’s license
convictions for calendar year 2007 for the following southern border states: Texas,
California, New Mexico, and Arizona.
Mexican Driver’s License Convictions Commercial          Non-Commercial Vehicle
Reported by State                    Vehicle
Texas                                2,254               339
California                           51                  21
New Mexico                           120                 0
Arizona                              94                  135


The following are the results of the number of Mexican driver’s license
convictions for calendar year 2007 for the non-southern border states with a large
number of convictions in 2007 and or 2008.
Mexican Driver’s License Convictions Commercial          Non-Commercial Vehicle
Reported by State                    Vehicle
Missouri                             5                   428
Hawaii                               0                   0


The following are the results of the number of Mexican driver’s license
convictions for calendar year 2007 for the remaining 44 non-southern border states
with a small number of convictions in 2007 and or 2008. These remaining 44 non-
border states accounted for 1.2 percent of all convictions reported or 87 of the
7,049 convictions reported for all vehicle types from January of 2007 through
September of 2008.
Mexican Driver’s License Convictions    Commercial       Non-Commercial Vehicle
Reported by State                       Vehicle
8 states reported both vehicle types    17               9
7 states reported commercial only       8                0
4 states reported non-commercial only   0                1
25 states reported no convictions       0                0
For calendar year 2007, the total number of Mexican driver’s license convictions
reported by commercial vehicle and non-commercial vehicle is 2,549 and 933;
respectively.

The following are the results of the number of Mexican driver’s license
convictions from January of 2008 through September of 2008 for the following
southern border states: Texas, California, New Mexico, and Arizona.
Mexican Driver’s License Convictions Commercial        Non-Commercial Vehicle
Reported by State                    Vehicle
Texas                                1,931             606
California                           278               99
New Mexico                           200               0
Arizona                              39                27


The following are the results of the number of Mexican driver’s license
convictions from January of 2008 through September of 2008 for the non-southern
border states with a large number of convictions in 2007 and or 2008.
Mexican Driver’s License Convictions Commercial        Non-Commercial Vehicle
Reported by State                    Vehicle
Missouri                             1                 313
Hawaii                               0                 21


The following are the results of the number of Mexican driver’s license
convictions from January of 2008 through September of 2008 for the remaining 44
non-southern border states with a small number of convictions in 2007 and or
2008.
Mexican Driver’s License Convictions    Commercial     Non-Commercial Vehicle
Reported by State                       Vehicle
8 states reported both vehicle types    11             19
7 states reported commercial only       18             0
4 states reported non-commercial only   0              4
25 states reported no convictions       0              0


From January of 2008 through September of 2008, the total number of Mexican
driver’s license convictions reported by commercial vehicle and non-commercial
vehicle is 2,478 and 1,089; respectively.
Figure 1. FMCSA Bus Inspection Area in San Ysidro, California

This figure is a picture illustrating our observation of the close proximity of an
FMCSA bus inspection area to oncoming bus traffic and portable inspection ramps
at the San Ysidro, California, border crossing. Source is the OIG.


Table 3. Location of FMCSA Personnel at the United States-Mexico Border
This table demonstrates the number and location of FMCSA personnel for the
following southern border states: Arizona, California, New Mexico, and Texas.
The source for this information is OIG’s analysis of October 2008 FMCSA Border
Staff Roster.
The following are the results of the number and location of FMCSA personnel.
Staff           AZ           CA         NM          TX            Total
Inspector       24           12         7           89            132
Auditor         6            6          0           26            38
Investigator    4            13         0           26            43
Supervisor      5            5          1           12            23
Support         1            2          0           4             7
Total           40           38         8           157           243
Note: AZ=Arizona, CA=California, NM=New Mexico, TX=Texas

The following are the results of the total number of FMCSA personnel as reported
in our August 2007 report as of June 2006.
Staff            AZ             CA        NM            TX        Total
Total            44             44        7             159       254
Source: OIG analysis of October 2008 FMCSA Border Staff Roster.

Table 4. United States, Mexico, and Central America Commercial Vehicle
and Driver Inspections and Out-of-Service Rates in the United States

The table demonstrates the United States inspections of motor carrier commercial
vehicles and drivers as well as out-of-service rates in the United States for motor
carriers domiciled in the United States, Mexico, and Central America for fiscal
years 2006 through 2008. The source for this information is OIG’s analysis of
FMCSA’s Motor Carrier Management Information System data. The out-of-
service rate (percentage) for vehicles resulted from a CVSA North American
Level I—walk-around, underside, and driver inspection; Level II—walk-around
and driver inspection; and Level V—inspection only. The out-of-service rate
(percentage) for drivers resulted from CVSA North American Levels I and II
inspections and a Level III—driver only inspection. Our analysis noted United
States inspections of Central American motor carriers. FMCSA’s December 2008
interim final rule (73 FR 76472, December 16, 2008) established a new
application process and safety monitoring system for non-North American-
domiciled motor carriers, including Central American motor carriers.

Table 4, Item: 1: Inspections and Out-of-Service Rates for United States-
Domiciled Motor Carriers

    In FY 2008, 2,762,525 inspections were conducted in the United States,
     348,410 carriers were inspected, and the average number of inspections per
     carrier was 8. Also, the percentage of vehicles placed out-of-service for
     safety or regulation violation was 21.8 percent, and the percentage of
     drivers placed out-of-service for license violation was 6.9 percent.

    In FY 2007, 2,655,012 inspections were conducted in the United States,
     337,835 carriers were inspected, and the average number of inspections per
     carrier was 8. Also, the percentage of vehicles placed out-of-service for
     safety or regulation violation was 21.7 percent, and the percentage of
     drivers placed out-of-service for license violation was 7.2 percent.

    In FY 2006, 2,554,280 inspections were conducted in the United States,
     314,486 carriers were inspected, and the average number of inspections per
     carrier was 8. Also, the percentage of vehicles placed out-of-service for
     safety or regulation violation was 22.3 percent, and the percentage of
     drivers placed out-of-service for license violation was 7.3 percent.

Table 4, Item: 2: Inspections and Out-of-Service Rates for Mexico-Domiciled
Motor Carriers

    In FY 2008, 220,405 inspections were conducted in the United States,
     4,335 carriers were inspected, and the average number of inspections per
     carrier was 51. Also, the percentage of vehicles placed out-of-service for
     safety or regulation violation was 21.2 percent, and the percentage of
     drivers placed out-of-service for license violation was 1.2 percent.

    In FY 2007, 215,140 inspections were conducted in the United States,
     4,520 carriers were inspected, and the average number of inspections per
     carrier was 48. Also, the percentage of vehicles placed out-of-service for
     safety or regulation violation was 21.6 percent, and the percentage of
     drivers placed out-of-service for license violation was 1.0 percent.

    In FY 2006, 211,106 inspections were conducted in the United States,
     4,617 carriers were inspected, and the average number of inspections per
     carrier was 46. Also, the percentage of vehicles placed out-of-service for
     safety or regulation violation was 20.9 percent, and the percentage of
     drivers placed out-of-service for license violation was 1.2 percent.
Table 4, Item: 3: Inspections and Out-of-Service Rates for Central American-
Domiciled Motor Carriers

    In FY 2008, 878 inspections were conducted in the United States, 134
     carriers were inspected, and the average number of inspections per carrier
     was 7. Also, the percentage of vehicles placed out-of-service for safety or
     regulation violation was 38.4 percent, and the percentage of drivers placed
     out-of-service for license violation was 63.2 percent.

    In FY 2007, 775 inspections were conducted in the United States, 91
     carriers were inspected, and the average number of inspections per carrier
     was 9. Also, the percentage of vehicles placed out-of-service for safety or
     regulation violation was 33.6 percent, and the percentage of drivers placed
     out-of-service for license violation was 49.4 percent.

    In FY 2006, 491 inspections were conducted in the United States, 54
     carriers were inspected, and the average number of inspections per carrier
     was 9. Also, the percentage of vehicles placed out-of-service for safety or
     regulation violation was 42.7 percent, and the percentage of drivers placed
     out-of-service for license violation was 29.3 percent.

Table 5. Truck and Bus Border Crossings that OIG Observed

This table demonstrates the southern truck border crossings observed by the OIG.
They include: Bridge of the Americas, El Paso, TX; Calexico East, Calexico, CA;
Columbia Solidarity Bridge III, Laredo, TX; Camargo Bridge, Rio Grande City,
TX; Eagle Pass, TX; Otay Mesa, CA; San Luis, AZ; Santa Teresa, NM; Tecate,
CA; World Trade Bridge, Laredo, TX; and Ysleta-Zaragosa Bridge, El Paso, TX.
This table also demonstrates the southern bus border crossings observed by the
OIG. They are: Calexico, CA; Juarez-Lincoln Bridge, Laredo, TX; McAllen–
Hidalgo Bridge, Hidalgo, TX; Otay Mesa, CA; and San Ysidro, CA.

Note: TX=Texas, CA=California, AZ=Arizona, NM=New Mexico.
